August 26, 2021
By Electronic Filing
Mr. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Cummings v. Premier Rehab Keller, P.L.L.C., No. 20-219

Dear Mr. Harris,
I represent Petitioner Jane Cummings in the above-captioned matter. I am
writing to inform you that Petitioner consents to the filing of any and all briefs of
amici, whether in support of either or neither party, at the merits stage. Should you
need any additional information, please let me know.
Respectfully submitted,

Andrew Rozynski, Esq.
EISENBERG & BAUM, LLP
24 Union Square East, PH
New York, NY 10003
Main: (212) 353-8700
Fax: (917) 591-2875
arozynski@eandblaw.com
Counsel for Petitioner
cc:

All Counsel of Record

EISENBERG & BAUM, LLP
REAL ESTATE•CORPORATE•ESTATE PLANNING•DEAF RIGHTS
24 UNION SQUARE EAST - PENTHOUSE NEW YORK NY 10003
PH 212 353 8700 FAX 917 591 2875
EandBLaw.com

